OIG Investigative Reports, Bell Atlantic Technician Pleads Guilty to Federal Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE  Wednesday, May 10,
2000
For Information Contact Public Affairs: Channing Phillips (202) 514-6933
Bell Atlantic Technician Pleads Guilty to Federal Charges in Connection with His Role in A $1 Million Scheme to Defraud U.S. Department of Education
Washington, D.C. - United States Attorney Wilma A, Lewis, Inspector General for the Department of Education Lorraine Lewis, and Jimmy C. Carter, Assistant Director in Charge of the FBI's Washington Field Office, announced that Robert J. Sweeney, 42, of Upper Marlboro, MD, pled guilty today in United States District Court before the Honorable Emmet G. Sullivan to one count of Conspiracy and one count of Theft of Government Property. Sweeney's guilty plea arose from his participation in a scheme through which the United States Department of Education was defrauded of more than $1,000,000. On account of his guilty plea, Sweeney faces a maximum
sentence of fifteen years imprisonment and $500,000 fine when he is sentenced by
Judge Sullivan.
According to the government's proffer at today's plea hearing, Robert Sweeney was a technician for Bell Atlantic Federal Systems who was assigned full-time to the Department of Education to install telephone systems pursuant to a large telecommunications contract that the Department had with Bell Atlantic. While at the Department of Education, Sweeney reported to a Telecommunications Specialist in the Office of Chief Information Officer who gave Sweeney, and other technicians who worked with Sweeney, their assignments.
At some point in time in the 1990s, the Telecommunications Specialist began requesting that Sweeney order materials on the Bell Atlantic contract that were unrelated to the performance of the Bell Atlantic contract, Initially, these orders were limited to telephones and/or answering machines for personal use. Sweeney would order the items as the Telecommunications Specialist requested, pick the items up from the Bell Atlantic warehouse, and deliver them to the Telecommunications Specialist. The Telecommunication's Specialist would in turn distribute these items to co-workers and/or family members for their personal use. These items were charged to and paid for by the Department of Education.
Over time the requests from the Telecommunications Specialist escalated and encompassed far more expensive items, eventually including a 61-inch Sony television, Gateway desktop computers, Dell laptop computers, printers, digital cameras, over 100 cordless telephones, scanners, Palm Pilots, compact disc players, walkie-talkies, and numerous other items, For the period beginning January 1, 1997, through December 9, 1999, these purchases cost the Department of Education more than $300,000.
Sweeney ordered these items for the Telecommunications Specialist, picked them up from the Bell Atlantic warehouse, and then delivered them to the Telecommunications Specialist or to the homes of her family members. None of the recipients of these goods paid for the items or reimbursed the Department of Education for them.
In a series of search warrants and consensual searches that were executed on December 9, 1999, agents from the OIG and the FBI recovered many of the stolen goods, including the 61-inch television, 15 computers,, 60 telephones, 15 digital cameras, and 25 printers. In all, in one day agents located and recovered over two-thirds of the items improperly charged to the Department of Education. Further investigation has led to recoveries of additional stolen items.
In addition to assisting the Telecommunications Specialist with the ordering and delivery of merchandise from Bell Atlantic, Sweeney performed numerous personal tasks for the Telecommunications Specialist during the workday. For example, he would drive family members to doctor's appointments, drive to Baltimore to purchase crab cakes for the Telecommunications Specialist's lunch, pick up the Telecommunication Specialist's granddaughter from school, and drive the Telecommunication Specialist to a computer store where he would purchase hundreds of dollars of software for the Telecommunications Specialist.
In exchange for Sweeney's unfailing assistance with her personal demands, the Telecommunications Specialist permitted Sweeney to claim numerous overtime hours from the Department of Education that he, in fact, did not work. For example, from September 7, 1999, through September 12, 1999, Sweeney was out of the country, The Telecommunications Specialist was aware of this fact but told Sweeney not to take vacation time for this trip but rather to claim that he worked these days. Sweeney arranged for a coworker to turn in time sheets for him. These time sheets indicated that Sweeney worked 44 hours while he was gone, including 12 hours of overtime. The Department of Education was charged and paid $3,200 for this time that Sweeney did no work for the Department of Education.
For the period beginning January 1, 1997, through November 30, 1999, the Department of Education was charged by Bell Atlantic $1,022,944 just for overtime, Sunday, and holiday pay for Sweeney and another technician assigned to the Department of Education contract. It is estimated that approximately $634,000 of these charges were not in fact earned by Sweeney and his coworker but were fraudulently claimed as part of this scheme.
The investigation into this scheme is continuing. Sweeney and Bell Atlantic are cooperating with the government's investigation. Currently six Department of Education employees are indefinitely suspended without pay pending the outcome of the criminal investigation. One additional Department of Education employee is on administrative leave and will be indefinitely suspended effective at the end of this month, The two Bell Atlantic technicians and a technician from another telecommunications company have been fired as a result of the investigation, One recipient of a computer and other items previously pled guilty to receipt of stolen government property. Criminal charges against a number of additional individuals are expected in the near future.
In announcing today's plea, U.S. Attorney Lewis, Inspector General Lewis, and Assistant Director Carter commended members of the Department of Education's office of Inspector General and the Federal Bureau of Investigation's Government Fraud Squad. In particular, they praised the outstanding investigative efforts of OIG Special Agent Brian Hickey and FBI Special Agent Thomas Chadwick, In addition, they commended Assistant U.S - Attorney Barbara A. Grewe of the Public Corruption/Government Fraud Section, who is handling the investigation.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov